                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Improvements Needed in
                     EPA’s Smartcard Program
                     to Ensure Consistent
                     Physical Access Procedures
                     and Cost Reasonableness
                     Report No. 13-P-0200                    March 27, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Patrick Gilbride
                                                   Randy Holthaus
                                                   Raul Adrian
                                                   Lawrence Gunn
                                                   Kevin Lawrence



Abbreviations

CID           Criminal Investigation Division
DHS           U.S. Department of Homeland Security
EPA           U.S. Environmental Protection Agency
EPASS         Environmental Protection Agency Personnel Access and Security System
FAR           Federal Acquisition Regulation
FICAM         Federal Identity, Credential, and Access Management
FIPS          Federal Information Processing Standards
GAO           U.S. Government Accountability Office
GSA           U.S. General Services Administration
HSPD-12       Homeland Security Presidential Directive-12
IGCE          Independent Government Cost Estimate
OAM           Office of Acquisition Management
OARM          Office of Administration and Resources Management
OEI           Office of Environmental Information
OIG           Office of Inspector General
OMB           Office of Management and Budget
PACS          Physical Access Control System
PIN           Personal Identification Number
PIV           Personal Identity Verification
SMD           Security Management Division
SOP           Standard Operating Procedures


Cover photos:    From left: a smartcard reader in the EPA Region 6 office in Dallas, Texas;
                 EPA West, which is part of EPA headquarters. (EPA OIG photos)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                13-P-0200
                                                                                                          March 27, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Improvements Needed in EPA’s Smartcard
Homeland Security Presidential      Program to Ensure Consistent Physical
Directive-12 (HSPD-12) and          Access Procedures and Cost Reasonableness
subsequent requirements state
that inconsistent approaches to
physical access are inefficient      What We Found
and costly, and increase risk to
the federal government.             Contrary to its plans, EPA upgraded some less critical facilities prior to its most
We conducted this audit to          important facilities (including EPA headquarters). EPA stated it was more efficient
determine whether the U.S.          to upgrade facilities based on geographic location rather than importance, but
Environmental Protection            provided no quantitative data to support that position. In addition, EPA indicated it
Agency (EPA) upgraded               did not want to make mistakes upgrading headquarters buildings so it upgraded
physical access control             others first. As a result, some lower valued facilities required a higher level of
systems consistent with the         authentication for access than EPA headquarters facilities.
goals of HSPD-12 and
subsequent requirements. We         The processes used to gain access are inconsistent and not yet inter-operable
also evaluated whether EPA          (can be used by all federal employees including those outside EPA) or
acquired and deployed               intra-operable (can be used by any EPA employee). This occurred because EPA
smartcard technology in an          had not developed national physical access procedures to foster consistency. As
efficient and effective manner.     a result, EPA is not realizing potential benefits associated with a standardized
                                    process.
This report addresses the
following EPA Goal or               EPA did not document assurance of cost reasonableness for some of the
Cross-Cutting Strategy:             physical access control system contracts. EPA had spent over $12.8 million
                                    upgrading physical access control systems and could not assure that $3.8 million
                                    of that amount (30 percent) was spent in the most efficient and effective manner.
 Strengthening EPA’s
                                    EPA planned to award an additional $10.6 million to upgrade its systems.
  workforce and capabilities.

                                     Recommendations and Planned Agency Corrective Actions

                                    We recommend that EPA re-prioritize the remaining facility upgrades by security
                                    level, from highest to lowest, and develop national policies and procedures that
                                    foster consistent inter-operable physical access. We also recommend that EPA
                                    establish an entity for overseeing EPA’s smartcard program, conduct cost
                                    analysis of smartcard upgrades, and enforce guidelines for independent
                                    government cost estimates. EPA agreed with two of our five recommendations.
For further information, contact
                                    For the other three recommendations, EPA proposed alternative corrective
our Office of Congressional and
Public Affairs at (202) 566-2391.   actions that we believe address our findings.

The full report is at:
www.epa.gov/oig/reports/2013/
20130327-13-P-0200.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460



                                                                                 THE INSPECTOR GENERAL



                                          March 27, 2013

MEMORANDUM

SUBJECT:	 Improvements Needed in EPA’s Smartcard Program to Ensure Consistent
          Physical Access Procedures and Cost Reasonableness
          Report No. 13-P-0200


FROM:          Arthur A. Elkins Jr.

TO:            Bob Perciasepe
               Deputy Administrator

               Craig E. Hooks
               Assistant Administrator
               Office of Administration and Resources Management


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determination on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required
The Agency did not concur with recommendations 1 and 2 and proposed acceptable alternative
corrective actions. The Agency concurred with recommendations 3 and 4 and partially concurred
with recommendation 5. On recommendation 5, parts c and d, the Agency provided acceptable
proposed alternative corrective actions. We accept EPA’s response and planned corrective
actions for all five recommendations and no further response is needed. We have no objections to
the further release of this report to the public. We will post this report to our website at
http://www.epa.gov/oig.

We request that EPA provide the OIG with: (1) copies of the upgraded physical access control
system planning documents submitted to the Office of Management and Budget in 2012;
(2) its updated EPA Personnel Access and Security System project management plan; (3) the
update to EPA Order 3200, EPA Personal Identity Verification and Smartcard Program when
finalized; (4) a copy of its policy titled Use of the PIV Card for Facility Access when finalized;
(5) documents that demonstrate EPA’s final decision on which office will oversee its smartcard
program; and (6) a copy of any new guidance or policy issued that further details how and when
independent government cost estimates should be prepared.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or Heist.Melissa@epa.gov; or Patrick
Gilbride, Product Line Director, at (303) 312-6969 or Gilbride.Patrick@epa.gov.
Improvements Needed in EPA’s Smartcard Program to Ensure                                                                    13-P-0200
Consistent Physical Access Procedures and Cost Reasonableness


                                  Table of Contents 

Chapters
   1	   Introduction ...........................................................................................................      1


                Purpose ..........................................................................................................    1     

                Background ....................................................................................................       1     

                Scope and Methodology.................................................................................                2

                Prior Audit Reports .........................................................................................         3


   2	   EPA Did Not Upgrade Most Critical Facilities First ...........................................                                4


                Implementation Plans Not Followed ..............................................................                      4

                EPA Upgraded 29 of Its Less Important Facilities Before
                      Upgrading Its Most Critical Assets........................................................                      5

                Importance of Facilities Not a Priority for Initiating Upgrades.........................                              6

                Conclusions....................................................................................................       7

                Recommendation ...........................................................................................            8

                Agency Comments and OIG Evaluation .........................................................                          8


   3	   EPA’s Physical Access Control Systems Not Inter-Operable 

        or Intra-Operable ...................................................................................................         9


                Physical Access Control Systems Should Be Inter-Operable ........................                                     9

                EPA Uses Various Processes for Physical Access Control ...........................                                   10 

                EPA Does Not Have National Procedures for Physical Access .....................                                      12 

                EPA Needs to Designate a Single Office to Administer Its
                      Smartcard Program ..............................................................................               13 

                EPA Not Maximizing Efficiency and Security Within PACS............................                                   13 

                Conclusions....................................................................................................      14 

                Recommendations .........................................................................................            14 

                Agency Comments and OIG Evaluation .........................................................                         14


   4	   EPA Acquired and Deployed Smartcard Technology

        Without Assuring Costs Were Reasonable ........................................................ 16 


                Cost Data and Documentation Requirements ................................................                            16 

                EPA Did Not Maintain Sufficient Documentation to Support
                      PACS Decisions ...................................................................................             18 

                Project and Contract Management Staff Did Not Assure
                      Adequate Data Were Maintained .........................................................                        20 

                Conclusions....................................................................................................      20 

                Recommendations .........................................................................................            21 

                Agency Comments and OIG Evaluation .........................................................                         21 


   Status of Recommendations and Potential Monetary Benefits................................. 24 


                                                           - continued-
Improvements Needed in EPA’s Smartcard Program to Ensure                                                                13-P-0200
Consistent Physical Access Procedures and Cost Reasonableness



Appendices
   A    Details on Scope and Methodology .................................................................... 25 


   B    Prior OIG and GAO Audit Reports ....................................................................... 26 


   C    List of Contracts Awarded as of March 2012 for PACS Upgrades ................... 29 


   D    Agency Response ................................................................................................. 30 


   E    Distribution ............................................................................................................ 45 

                                  Chapter 1

                                   Introduction
Purpose
            On August 27, 2004, President George W. Bush signed Homeland Security
            Presidential Directive-12 (HSPD-12). The directive states, “it is the policy of the
            United States to enhance security, increase Government efficiency, reduce
            identity fraud, and protect personal privacy by establishing a mandatory,
            Government-wide standard for secure and reliable forms of identification issued
            by the Federal Government to its employees and contractors (including contractor
            employees).” Agencies are still working to implement HSPD-12 and project
            milestones set by the Office of Management and Budget (OMB).

            The purpose of this audit was to determine whether the U.S. Environmental
            Protection Agency (EPA) upgraded physical access control systems (PACS)
            consistent with the goals of HSPD-12 and subsequent requirements. We also
            sought to determine whether EPA acquired and deployed smartcard technology in
            an efficient and effective manner.

Background
            In March 2007, in response to HSPD-12, EPA began issuing smartcards—the
            required common form of federal identification—to eligible EPA employees.
            EPA’s physical resources include its office buildings, laboratories, storage
            centers, and other physical structures. PACS are the systems that control access to
            EPA’s physical resources.

            As of September 2011, EPA informed us it had 156 facilities nationwide. EPA
            planned to upgrade 65 of those 156 facilities with PACS. By the end of 2011,
            EPA had either completed or started upgrading 39 facilities. EPA plans to
            upgrade an additional 26 facilities by the end of 2014, and be HSPD-12 compliant
            by September 30, 2015.

            EPA plans to spend a total of $55.8 million through fiscal year 2015 for its
            Environmental Protection Agency Personnel Access and Security System
            (EPASS) program. The EPASS program includes all components of personnel
            access, from developing and issuing ID cards (smartcards) to the technology and
            processes used to grant access to buildings and computers. According to data EPA
            provided OMB, EPA spent $32.2 million to upgrade smartcard technology
            through July 2011 (which includes upgrading computers as well as physical
            locations) and plans to spend about $23.6 million over the next 4 years for its
            EPASS program.

13-P-0200                                                                                     1
            EPA is in the process of upgrading its PACS. In addition to providing access that
            is intra-operable throughout the Agency, EPA is required to upgrade PACS in a
            way that allows inter-operability with other federal agencies. For purposes of this
            report, intra-operability means that EPA employees can easily gain access to EPA
            facilities using their smartcards and PACS technology when they have an
            authorized business reason to do so.

            EPA’s Security Management Division (SMD) is responsible for upgrading PACS
            to comply with HSPD-12. SMD is within the Office of Administration and
            Resources Management’s (OARM) Office of Administration (OA), which is
            responsible for the acquisition of all Agency facilities, property management, and
            property security. EPA’s Office of Acquisition Management (OAM) is
            responsible for awarding and managing contracts, including those to implement
            HSPD-12. EPA’s Office of Environmental Information (OEI) is responsible for
            upgrades related to computer and information systems needed to comply with
            HSPD-12.

            Since the time President Bush signed HSPD-12 in 2004, the U.S. Department of
            Commerce and OMB developed documents that detail requirements and offer
            guidance for implementing the smartcard program:

               	 The U.S. Department of Commerce issued the Federal Information
                  Processing Standards (FIPS) 201 in February 2005. FIPS 201 lays out the
                  requirements for a common identification standard (to implement HSPD-
                  12) for all federal employees and contractors. In March 2006, the U.S.
                  Department of Commerce updated FIPS 201 by issuing FIPS 201-1.
                OMB issued M-05-24 in August 2005 to all federal departments and
                  agencies to transmit HSPD-12 and provide associated guidance.
                OMB issued M-06-18 in June 2006 and established a set of parameters for
                  acquiring products and services for implementing HSPD-12.
               	 OMB issued M-11-11 in February 2011, which included a memorandum
                  from the U.S. Department of Homeland Security (DHS). The memo
                  outlined a plan of action for agencies to expedite the full use of the
                  smartcard credentials for access to federal facilities and information
                  systems.

Scope and Methodology
            We conducted our audit from June 2011 to November 2012 in accordance with
            generally accepted government auditing standards. Those standards require that
            we obtain sufficient, appropriate evidence to provide a reasonable basis for our
            findings and conclusions based on our evaluation objectives. We believe that the
            evidence obtained provides a reasonable basis for our findings and conclusions
            based on our objectives.




13-P-0200                                                                                      2
            During our audit, we reviewed HSPD-12 and other supporting federal criteria as
            well as EPA’s policies and plans for implementing its smartcard program. We
            also reviewed relevant documentation for each of the contracts EPA awarded to
            upgrade physical and logical access control systems. We interviewed EPA
            headquarters managers and staff from OARM’s SMD and OAM, and from OEI.
            We also conducted a site visit to Region 1 in Boston, Massachusetts, and
            interviewed PACS coordinators from all regions where EPA had upgraded PACS.
            Appendix A provides further details on our scope and methodology.

            In addition to PACS, HSPD-12 involves upgrading logical access control systems.
            Logical resources include computers and information systems that EPA
            employees use. EPA has had limited accomplishments to date related to the
            Agency’s logical access systems. EPA employees are not using smartcards to
            access information systems except for a limited number of employees who are
            testing their use. As a result, although logical access was originally within the
            scope of our review, we did not review logical access and developed no findings
            relating to that area.

Prior Audit Reports
            Prior reports by the EPA Office of Inspector General (OIG), DHS OIG,
            GSA OIG, and U.S. Government Accountability Office (GAO) have highlighted
            various issues associated with implementing HSPD-12, including the complexity
            and the importance of sound planning across government. Appendix B provides
            details on the corrective actions EPA has taken to address prior audit report
            findings.




13-P-0200                                                                                   3
                                   Chapter 2

    EPA Did Not Upgrade Most Critical Facilities First

            EPA upgraded some facilities that it classified as less critical prior to upgrading
            all of its most important and critical facilities, including headquarters facilities.
            On April 13, 2007, EPA issued Order 3200, EPA Personal Identity Verification
            and Smartcard Program. That order and subsequent plans stated that EPA would
            upgrade facilities in an order that would protect its most critical and valued assets
            first, but EPA did not do so. EPA officials said it was more efficient logistically to
            upgrade facilities based on geographic location rather than importance to EPA.
            However, SMD could not provide any analysis demonstrating efficiency. The
            SMD Director also said that EPA did not want to make mistakes upgrading its
            headquarters buildings so it has been upgrading other buildings first. As a result,
            some of EPA’s most critical facilities do not require as stringent an identity
            verification process for access as some of its least important facilities. As of
            March 2012, EPA spent over $4.5 million to upgrade facilities it determined to be
            less critical to the Agency while it still has not upgraded all of its most critical
            facilities.

Implementation Plans Not Followed
            Policy and plans indicate that EPA would upgrade its most critical assets before
            upgrading lower value assets (facilities). EPA designates the security level of its
            facilities numerically on a scale from 4 down to 1, based on a federal security
            standard. Level 4 facilities are EPA’s most critical assets while Level 1 facilities
            would be least critical. According to the federal standard used for determining the
            security level of a facility, agencies should consider the following five factors when
            deciding the level assigned to a facility: (1) mission criticality, (2) symbolism,
            (3) facility population, (4) facility size, and (5) threat to tenant agencies.

            EPA’s Policy and Plans

            EPA issued Order 3200 to establish the Agency’s policy for providing a roadmap
            to implement EPA’s smartcard program. The order states, “Systems located in
            facilities identified as Agency critical infrastructure assets will be replaced first,
            followed by Security Level 4 facilities, Security Level 3 facilities, and Security
            Level 2 facilities…Those EPA facilities designated at Security Level 1 will
            maintain existing physical access security counter measures.”

            EPA issued subsequent plans dealing with PACS upgrades. In 2008, EPA
            provided OEI’s HSPD-12 Physical Access Controls and Logical Access Controls
            Plan to OMB. In 2009, EPA issued its EPASS Project Management Plan. Both
            plans laid out the priority in which EPA would upgrade PACS. They documented

13-P-0200                                                                                        4
            that EPA would upgrade new construction or leases first, followed by facilities
            based on security level ratings. The 2008 plan stated, “…EPA will mitigate its
            highest risks first thus protecting our higher valued targets early on in the
            implementation process.” The plan also stated that EPA would complete
            upgrading all of its Security Level 4 facilities by December 2011. Similar to EPA
            Order 3200, the 2008 plan also stated that existing Security Level 1 facilities
            would not be upgraded.

            Inter-Agency Security Committee Standards

            According to the Interagency Security Committee (ISC) Standard: Facility
            Security Level Determinations for Federal Facilities, Level 5 facilities are unique
            facilities with a high level of importance that merit the highest degree of
            protection. Level 4 facilities are also of high importance and require the next
            highest degree of protection, and so forth down to Level 1 facilities. EPA has
            classified all of the buildings housing EPA’s 10 main regional offices as well as
            its headquarters facilities as Level 4.

EPA Upgraded 29 of Its Less Important Facilities Before Upgrading Its
Most Critical Assets
            EPA’s SMD did not follow EPA Order 3200 or the last plan it submitted to OMB
            in 2008 for upgrading Agency facilities. Although EPA’s stated policy was to
            upgrade its most critical assets first, as of the beginning of 2012 EPA had yet to
            start upgrades on six Level 4 facilities while it had completed or already started
            upgrades on 29 lower-level facilities. EPA also upgraded four Level 1 facilities
            and plans to upgrade another one even though its policies and plans stated that
            existing Level 1 facilities would not be upgraded. These lower-level facilities
            have less urgent security needs than the higher-level facilities. For example, one
            of the Level 1 facilities upgraded is used to store vehicles. No EPA employees
            work within that facility on a permanent basis. Conversely, EPA has not upgraded
            some of its headquarters buildings that are classified as Level 4, where up to
            hundreds and even thousands of EPA employees work on a full-time basis.

            SMD plans to upgrade 65 facilities out of 156 EPA facilities by the end of
            September 2015. It plans to upgrade all Level 4 and Level 3 facilities, and some
            Level 2 and Level 1 facilities. By the end of 2011, EPA had completed or started
            upgrades to 39 facilities—4 at Level 1, 14 at Level 2, 11 at Level 3, and 10 at
            Level 4. EPA needs to complete upgrades for the following six Level 4 facilities

                  Region 9 Main Building
                  EPA East and EPA West in Headquarters
                  Region 10 Main Building
                  Region 7 Main Building
                  Ariel Rios North and South Federal Building in Headquarters
                  Ronald Reagan Building in Headquarters

13-P-0200                                                                                      5
            Details on upgrade actions EPA has taken since 2006 and plans to take are in
            table 1.

            Table 1: Number of EPA facilities to be upgraded by security level
                                                         Security levels
                     Year started                  4        3       2           1          Total
                        2006                       1       0        0           0            1
                        2007                       2       2        2           0            6
                        2008                       1       4        1           1            7
                        2009                       0       0        1           0            1
                        2010                       4       2        5           2           13
                        2011                       2       3        5           1           11
                        2012*                      3       1        2           0            6
                        2013*                      3       5        4           0           12
                        2014*                      0       0        7           1            8
             Total to be upgraded                 16      17       27           5           65
             Total number of facilities           16      17       82          38        **156
            Source: OIG analysis of data provided by SMD.
              * Projected by EPA. 

              ** EPA has not assessed the security level for 3 of its 156 facilities.



Importance of Facilities Not a Priority for Initiating Upgrades
            A facility’s security level did not appear to be SMD’s top consideration for when
            it should upgrade a facility. The SMD Director told us she believed it was more
            efficient and logistically made more sense to upgrade facilities based on
            geographic location. She said that SMD preferred to award one contract for each
            location or region and have all facilities in that area upgraded simultaneously. In
            other words, to install independent PACS across five facilities would require two
            servers (primary and backup) per location, totaling 10 servers across the five
            locations, and 5 vendor application licenses. In comparison, covering the five
            locations with a single enterprise implementation requires only two servers and
            one vendor application license. We requested that SMD provide data or
            documented justification showing that it was more efficient to upgrade based on
            location. According to the SMD Director, they did not have such data because the
            increased efficiency was obvious. However, without cost analysis, EPA cannot
            demonstrate that its approach was more efficient. Further, when we asked the
            Director why EPA’s headquarters buildings were not upgraded first, the Director
            said that they did not want to make mistakes at headquarters and were therefore
            upgrading other buildings first and leaving the upgrades of headquarters buildings
            toward the end of the project. Although the Director said that efficiency was the
            primary reason EPA upgraded facilities in the order it did, criteria that EPA
            technical evaluation panel members used to review vendor proposals clearly
            stated that panel members should consider price/cost as the least important factor
            when evaluating which vendor should get a contract.

13-P-0200                                                                                          6
            We also found two cases that further indicated that facility security levels were
            not the driving factor in the timing of upgrades. In one case, EPA upgraded the
            PACS system at a facility in Alabama that was 3 years overdue for a security
            level assessment. The facility was a Security Level 3 facility, so EPA should have
            re-assessed its Security Level every 3 years. According to SMD, EPA last
            assessed the facility in 2005. Therefore, EPA should have assessed the facility
            again in 2008 but it did not. EPA upgraded that facility while it had not upgraded
            many Level 4s. In another case, EPA upgraded a facility in Puerto Rico at the end
            of 2011 even though SMD did not complete the facility level assessment until
            January 2012.

            We asked the SMD Director if she had considered other contracting approaches to
            upgrading facilities that emphasized security level first rather than all facilities in
            a given geographic area at the same time. She said that she had not thought of that
            and would have to consult with OAM to determine whether EPA could have used
            other contracting options. We discussed this issue with the OAM contracting
            officer for some PACS contracts and she told us that awarding contracts in order
            of facility security level could have been an effective alternative without resulting
            in greater cost. She said that SMD could have awarded national contracts at the
            beginning of this program to focus first on upgrading all Level 4s. She said that
            after SMD upgraded those facilities, additional national contracts could have been
            awarded to upgrade the Level 3s and so on, thereby addressing the most critical
            assets in a prioritized order.

Conclusions

            Eight years after President Bush signed HSPD-12, EPA has not upgraded all of its
            most critical facilities. As a result, some facilities—housing hundreds or even
            thousands of employees along with other important assets—did not require the
            higher level of authentication to gain access as some of its facilities of lesser value
            and importance. As of March 2012, EPA had spent over $4.5 million to upgrade
            facilities assessed below Level 4 before it upgraded all Level 4 facilities. EPA has
            spent 69 percent more to upgrade Level 2 facilities ($2.8 million) as it has on
            Level 3 facilities ($1.66 million), even though Level 2 facilities are less critical
            than Level 3. As EPA stated in its formal plans, it planned to upgrade facilities
            with the highest security level classification before upgrading lower level
            facilities to improve security to its most critical assets first. However, EPA
            decided to deviate from the plan it submitted to OMB and instead upgraded
            facilities based on location. EPA should ensure it upgrades facilities based on the
            criticality of the facility rather than geographic location.




13-P-0200                                                                                        7
Recommendation
            We recommend that the Assistant Administrator for Administration and
            Resources Management:

               1.	 Re-prioritize the remaining facility upgrades by security level from
                   highest to lowest, complete all remaining upgrades according to security
                   level, and require the SMD Director to provide written justification for
                   upgrading Level 1 facilities.

Agency Comments and OIG Evaluation
            EPA did not concur with recommendation 1 and proposed an alternative
            recommendation. We continue to believe that EPA should have placed more effort
            into upgrading the Level 4 facilities earlier in this PACS upgrade project. The plan
            EPA shared in its response for upgrading its remaining facilities addresses this by
            planning to complete upgrades to facilities with higher security levels before
            completing those with a lower security level. Therefore, we agree with EPA’s
            proposal to continue with its current sequencing of facility upgrades.

            Regarding Level 1 facilities, we agree with EPA’s proposal that the SMD Director
            will provide written justification to the Assistant Administrator for OARM and
            obtain approval in advance of any work. As a result, we consider recommendation
            1 resolved with corrective action pending.

            For EPA’s detailed comments on this chapter and additional OIG responses, see
            appendix D.




13-P-0200                                                                                     8
                                    Chapter 3

            EPA’s Physical Access Control Systems 

              Not Inter-Operable or Intra-Operable
 
            EPA has upgraded more than half of the 65 facilities’ PACS it plans to upgrade,
            but the processes used to gain access vary considerably and the systems are not
            yet inter-operable or intra-operable in practice. For purposes of this report, intra-
            operability means that EPA employees can easily gain access to any EPA facility
            when they have an authorized business reason to do so, while inter-operability
            goes beyond EPA and applies to any federal employee that has a need for access.
            HSPD-12 and OMB’s M-05-24 both stress the importance of eliminating
            inconsistency in physical access systems. EPA’s varied and inconsistent
            approaches have resulted from a lack of developed, national physical access
            procedures to foster consistency or inter-operability. As a result, EPA is not
            realizing the potential benefits of a standardized process, and employee access to
            EPA buildings continues to be inconsistent depending on an employee’s
            geographic location.

Physical Access Control Systems Should Be Inter-Operable
            HSPD-12 stresses the importance of eliminating inconsistency in physical access
            systems, and states, “Wide variations in the quality and security of forms of
            identification used to gain access to secure Federal and other facilities where there
            is potential for terrorist attacks need to be eliminated.” OMB M-05-24 states,
            “Inconsistent agency approaches to facility security and computer security are
            inefficient and costly, and increase risk to the Federal government.” OMB issued
            OMB M-11-11 in February 2011 incorporating DHS requirements that outlined a
            plan for federal agencies to use for upgrading identity verification systems. The
            DHS memo highlights the importance of using a consistent process for access. It
            states, “Specific benefits of the standardized credentials required by HSPD-12
            include secure access to federal facilities.… Additionally, standardization leads to
            reduced overall costs and better ability to leverage the Federal Government’s
            buying power with industry.” This memo also states that “Agency processes must
            accept and electronically verify PIV [personal identity verification] credentials
            [smartcards] issued by other federal agencies.”

            FIPS 201-1 laid out the requirements for a common identification process. It
            addresses factors such as the ability to rapidly authenticate smartcards and to be
            inter-operable from one federal facility to another. FIPS 201-1 defines inter-
            operability as follows: “For the purposes of this standard, interoperability allows
            any government facility or information system, regardless of the PIV Issuer, to
            verify a cardholder’s identity using the credentials on the PIV Card.”



13-P-0200                                                                                           9
            OARM issued Standard Operating Procedures for EPA Personnel Access and
            Security System (EPASS) Badge Post-Issuance Management, dated June 23, 2011.
            While the procedures specify that EPA will have one process nationwide for
            issuing smartcards, it does not foster consistency in EPA’s physical access
            process. Specifically, the procedures state that each location is individually
            responsible for figuring out how to allow employees to use the smartcards to gain
            access to EPA facilities. The EPASS standard operating procedure states:

                   The scope of this SOP is to provide EPA personnel serving as an
                   Issuer [of the smartcards] the same process and procedures across
                   the entire EPA. It does not apply to integration of the EPASS card
                   into EPA Physical Access Control Systems (PACS) or procedures
                   for issuance of an initial card. Each site should develop their own
                   PACS SOP to fulfill that requirement.

EPA Uses Various Processes for Physical Access Control
            EPA is not using PACS in a consistent manner. EPA has used different processes,
            including the use of key pads and temporary cards, to gain access to EPA
            facilities. In addition, EPA’s Criminal Investigation Division (CID) initially stated
            that it was not going to upgrade its facilities because it did not agree with the
            direction of the smartcard program, and SMD allowed that decision when it
            should not have.

            Inconsistent Use of Card Reader Key Pads

            EPA’s use of key pads for physical access is inconsistent. Of the locations where
            PACS upgrades are complete, some use a card reader and key pad for access
            while others that have key pads do not use them. Regional security staff generally
            had rationale for using card readers with or without pin pads, but the reasoning
            was not consistent from one region to the next. In Region 6, the main building in
            Dallas, Texas, is a privately owned building, and because anyone from the general
            public can access the building, EPA Region 6 employees must enter a 6-digit
            personal identification number (PIN) in addition to scanning their smartcard.
            Further, we found that top-level managers in Region 6 intentionally never
            activated the card reader that controlled access between the Regional
            Administrator’s office and the region’s external affairs and legal offices, so staff
            who frequently go back and forth between those offices would not have to use
            their smartcards.

            EPA also installed card readers with key pads throughout the areas it occupies in
            the Region 1 main building in Boston that several other federal agencies also
            occupy. However, employees only scan their cards for access; no PIN is required.
            Region 1 security staff informed us the key pads were in place in case additional
            security was necessary but there are no present plans to activate the key pads.



13-P-0200                                                                                     10
            The more levels that an agency requires for access, the greater level of security
            provided. There are three basic levels of authentication an agency could use for
            access purposes – an agency could require an employee to use: (1) something they
            have in their possession (like swiping a smartcard across a reader); (2) something
            they know (like entering a PIN into the card reader in addition to just using the
            smartcard); and (3) something they are (like a biometric, such as a fingerprint or
            retinal scan, which is a feature unique to each person). If a facility or region
            required only the badge to be swiped across a card reader, an unauthorized person
            could use a lost or stolen card for access until it is deactivated.

            In some regions, like Region 6, EPA requires employees to use something they
            have (card) and something they know (PIN). In other regions, EPA employees
            only use something they have (card) and do not have PINs assigned to them. In
            EPA headquarters buildings, employees have only used something they have
            (either their local EPA proximity card or smartcard) to present to security guards
            for access to those buildings. However, PACS readers have yet to be installed in
            all headquarters buildings.

            Inconsistencies in Access by EPA Employees from Other Regions

            The process EPA uses to grant access to visiting EPA employees also varies from
            one region to the next. For example, Region 6 requires a temporary visitor card
            and 8-digit PIN from EPA visitors from other regions to gain access. Region 8, on
            the other hand, uses a more traditional visitor check-in
            process. In Region 8, a visiting EPA employee checks in
            at a reception area at the main entrance and regional staff
            issue the person a visitor pass. Additionally, the visitor
            must rely on an EPA employee who resides in the
            building for access.

            Because PACS should be intra-operable, we asked
            Region 6 if it could program a visiting OIG employee’s
            actual smartcard to allow them access in the region.
            While the Region 6 PACS coordinator informed us she           A temporary Region 6
                                                                          visitor card. (EPA OIG
            could program the card to allow for access, she also          photo)
            warned that it could cause problems in the PACS identity
            verification system. She explained that because locations operate differently,
            changing the employee’s information to allow access to Region 6 could adversely
            affect access when the employee returned to their home region. The 8-digit PIN
            that Region 6 requires for visiting EPA employees is a primary reason it uses the
            temporary card. EPA employees visiting Region 6 may use a different number of
            digits in their home region. If Region 6 were to provide access through that
            employee’s smartcard, it would hinder their ability to access their home office.

            We also asked Region 8 if it could program a visiting OIG employee’s smartcard
            for use within that region. The Region 8 PACS coordinator said they were not


13-P-0200                                                                                     11
            informed that they are required to do so and therefore would not, as it could cause
            problems within the PACS electronic identity verification system.

            CID Not Required to Use Smartcard Readers

            EPA’s SMD also did not require one EPA office, CID, to use smartcard readers
            and additionally allowed them to forgo the PACS upgrade. CID did not seem to
            understand that it could maintain its unique security needs when upgrading its
            PACS. We found that CID’s office in Dallas should have had a smartcard reader
            on one of its doors that the public could access. Once we brought this to the
            attention of SMD and CID, and after talking to CID’s National Acting Director,
            CID started planning upgrades for more of its offices. CID will pilot the
            installation of smartcard readers in its offices in Regions 6, 7, and 9. If the pilot is
            successful, CID plans to install readers in offices in Regions 1, 2, 4, 5, and 10. In
            Dallas, EPA had already upgraded the main Region 6 building (a Level 4 facility)
            with card readers in 2011. Because CID’s office space in Dallas was not upgraded
            at the same time as the Region 6 main building, EPA planned to spend an
            additional $17,927 to install the necessary equipment to CID’s space. The SMD
            PACS project manager told us the CID space in Dallas would be upgraded by the
            end of February 2012. The additional card readers, including CID’s main door
            that is accessible to the general public, were installed and operational in
            September 2012.

EPA Does Not Have National Procedures for Physical Access
            According to its own plans, EPA knew it would take until September 2015 to
            complete its smartcard program—nearly 10 years. However, EPA has not
            developed national physical access procedures to foster consistency or intra-
            operability. EPA has already upgraded or begun to upgrade almost 70 percent of
            the facilities it plans to upgrade (45 of 65 facilities). We also determined that
            there was a lack of direct coordination between SMD and some regions. We
            interviewed PACS coordinators associated with each of the EPA facilities that
            had completed PACS upgrades, and some informed us that SMD did not
            communicate or provide guidance.

            The SMD Director told us that an EPA workgroup has discussed issues related to
            the smartcard program across the country. According to the Director, the
            workgroup is made up of representatives from various programs and locations and
            is designed to resolve issues and determine necessary Agency-wide standards. In
            September 2012, the Director said that EPA would have national procedures in
            place by December 31, 2012.

            Another reason the PACS upgrade process has been inconsistent is that SMD did
            not follow the plan submitted to OMB for carrying out the smartcard program.
            According to the SMD Director, the last time SMD submitted a formal PACS
            upgrade plan to OMB was in 2008. As discussed in chapter 2, EPA did not follow


13-P-0200                                                                                        12
            the process it laid out in that 2008 plan. If EPA’s plans and approach have
            changed, it should formally notify OMB of those changes so OMB can hold EPA
            accountable.

EPA Needs to Designate a Single Office to Administer Its Smartcard
Program
            At present, EPA does not have a clearly identified office in charge of its smartcard
            program. Program accountability is dispersed among offices and management. The
            Federal Identity, Credential, Access Management (FICAM) Roadmap and
            Implementation Guidance—issued in December 2011 by the Federal Chief
            Information Officers Council—lays out guidance for federal agencies to, among
            other things, increase security and improve inter-operability with the use of
            smartcards. In February 2011, OMB issued memorandum M-11-11 requiring
            agencies to follow the FICAM guidance. In M-11-11, OMB, through an attached
            memorandum from DHS, asked each agency to “…designate an agency lead
            official…” for implementing HSPD-12. While OMB asked agencies to designate
            one person, EPA designated two people as lead officials. EPA identified OARM’s
            Director of the Office of Administration as well as EPA’s Senior Agency
            Information Security Officer (within OEI) as lead officials for HSPD-12
            implementation. SMD and OEI managers told us that they believe that EPA was
            the only agency that provided more than one point of contact to OMB.

            According to the FICAM guidance, each agency should have a formal governance
            structure that creates and assigns a specific group to (a) provide oversight and
            management; and (b) develop and enforce agency-specific policies, processes,
            and performance measures. Oversight of the program could come from an
            executive steering committee and, if so (per the guidance), the committee should
            have a charter that establishes the group’s authority to enforce changes to align
            the program with the agency’s overall mission.

            SMD and OEI managers told us that the Assistant Administrators for OARM and
            OEI have been discussing with EPA’s Chief Financial Officer over the last year
            the idea of creating one office to oversee the Agency’s smartcard program. In
            response to our draft audit report, EPA told us it plans to decide which entity will
            implement and oversee its smartcard program by June 30, 2013.

EPA Not Maximizing Efficiency and Security Within PACS
            Because EPA has not established consistent national physical access procedures,
            regions have established different methods to gain access. With multiple
            processes to manage, EPA is not realizing the potential benefits of a standardized
            process such as lower equipment and maintenance costs and an overall greater
            understanding of how the process works. Furthermore, EPA cannot assure it is
            using the best approach nationally. If one physical access process is more
            effective than others, EPA should use that process nationwide. However, since

13-P-0200                                                                                     13
            there is a lack of coordination among the different locations, good ideas used by
            one region may not be benefitting other regions.

Conclusions

            We recognize that EPA operates under a culture where regions often establish
            their own processes for various programs. However, the inconsistency with which
            EPA has upgraded PACS is impeding EPA’s ability to have intra-operable
            systems for EPA employees, much less inter-operability with other agencies. EPA
            should follow a national process for physical access to its facilities. Inter-
            operability is a primary goal associated with HSPD-12. Because the locations
            where EPA completed PACS upgrades are not intra-operable, EPA might have to
            spend additional funds to achieve national consistency. EPA has already spent
            over $12.8 million upgrading PACS. EPA should specify a consistent process for
            all regions to ensure that physical access systems can be inter-operable. EPA
            should also increase accountability over its smartcard program by clearly
            identifying one senior executive responsible for implementation and oversight.
            Stronger leadership over the program should help address the issues related to
            inconsistency that we have identified.

Recommendations

            We recommend that the Assistant Administrator for Administration and
            Resources Management:

            2.	 Develop national policies and procedures for PACS that foster consistent
                physical access to EPA offices around the country.

            We recommend that the Deputy Administrator:

            3.	 Establish one entity responsible for implementing and overseeing the
                Agency’s smartcard program, including physical and logical access.

Agency Comments and OIG Evaluation
            EPA did not concur with recommendation 2 in our draft report. EPA stated it
            disagreed with the word “inter-operable” in the recommendation because the
            EPASS badge is inherently intra-operable across the Agency and inter-operable
            with other federal agencies. EPA emphasized that the smartcard and PACS
            programs fully support inter- and intra-operability in compliance with all
            requirements and standards. As a result, EPA requested that the OIG remove the
            words “and inter-operable” from recommendation 2.

            EPA stated that it agreed with the OIG that fostering consistent facility access
            procedures is important, with the understanding that procedures should be
            responsive to local security conditions and the range of real estate arrangements at

13-P-0200                                                                                       14
            EPA facilities. EPA stated that what has been lacking is a clear understanding by
            all offices of the capabilities of the smartcards and PACS, as well as an Agency-
            wide policy on using smartcards for facility access. Therefore, EPA proposed in
            its response to do the following two things by no later than March 31, 2013:
            (1) disseminate information to regional personnel on existing capabilities of the
            smartcards and PACS, and (2) submit an EPA-wide policy titled Use of the PIV
            Card for Facility Access through the Agency’s directives clearance process. The
            purpose of the policy is to provide consistent application of physical access
            controls; describe requirements for granting access to PIV-enabled EPA-
            controlled buildings and spaces; and define the roles and responsibilities of all
            parties involved in granting access to EPA facilities.

            We removed the word “inter-operable” from the recommendation 2 language.
            We believe that EPA’s planned efforts to educate regional personnel on the
            capabilities of the smartcards as well as to develop an Agency-wide policy to
            foster consistent access procedures are adequate corrective actions. We fully
            understand EPA’s position that the EPASS badges are designed to be intra- and
            inter-operable, as the smartcards comply with FIPS 201 requirements. The issue
            that we presented in this chapter does not focus on any identified deficiencies
            with the smartcard (badge) itself but rather on how EPA has allowed the
            smartcards to be used for access in different ways across the country. EPA’s
            planned corrective actions, particularly to issue a national policy on access
            procedures, should resolve the issues we identified during our audit. As a result,
            we consider recommendation 2 resolved with corrective action pending.

            EPA concurred with recommendation 3. Under the Deputy Administrator’s
            direction, EPA plans to determine the entity responsible for implementing and
            overseeing EPA’s smartcard program by no later than June 30, 2013. We are
            pleased that discussions occurred over the last year between the Assistant
            Administrators for OARM and OEI and the Chief Financial Officer to consider
            creating one office to oversee the Agency’s smartcard program. We consider
            recommendation 3 resolved with corrective action pending.

            For EPA’s detailed comments on this chapter and additional OIG responses, see
            appendix D.




13-P-0200                                                                                        15
                                   Chapter 4

   EPA Acquired and Deployed Smartcard Technology 

       Without Assuring Costs Were Reasonable
 
            EPA has not maintained sufficient documentation to make sound cost-related
            decisions for upgrading PACS. We found numerous independent government cost
            estimates (IGCEs) that were not prepared appropriately. For example:

                  There was no evidence that some IGCEs were final.
                  A cost estimator who was not employed at EPA was the only name on
                   several IGCEs.
                  At least one IGCE was prepared to match the winning contractor’s
                   proposed offer.
                  For three PACS contracts, no IGCEs were prepared.

            In addition, contracting officers did not certify that EPA bought only approved
            products and services that complied with HSPD-12 requirements. SMD did not
            have a process in place to analyze actual costs from completed upgrades for future
            cost estimating purposes due to issues within the program and contract
            management offices. SMD staff said they were not familiar with EPA OAM’s
            IGCE Manual and GAO’s cost estimating guide. OAM’s contracting officers did
            not always ensure files contained necessary documentation of price
            reasonableness. EPA plans to spend an additional $10.6 million to upgrade PACS,
            and a lack of assurance that costs are fair and reasonable will remain if EPA
            continues to award contracts without conducting sound cost analysis.

Cost Data and Documentation Requirements
            OAM is responsible for the policies, procedures, operations and support of EPA’s
            procurement and contracts management program, from contract planning through
            closeout. In June 2010, OAM issued its most recent update to its EPA Guide for
            Preparing Independent Government Cost Estimates. This guidance states that
            IGCEs are an integral tool for effective acquisition programs in both government
            and private industry.

            OAM's Manual for Preparing IGCEs

            GAO’s Cost Estimating and Assessment Guide (GAO-09-3SP) as well as OAM’s
            IGCE Manual (June 2010 Revision) state that:

                   … programs should be monitored continuously for cost control by
                   comparing planned and actual performance against the approved
                   program baseline [IGCE]… cost or schedule variances resulting


13-P-0200                                                                                  16
                   from incorrect assumptions should always be thoroughly
                   documented so as not to repeat history, and all historical data should
                   be archived in a database for use in supporting future estimates.

            OAM’s manual states an IGCE is a detailed estimate of the cost to the
            government to acquire services and/or supplies, typically from contractors. It also
            defines estimates as a projection or forecast of the economic or financial value of
            goods or services to be delivered in the future. IGCE users should be able to trace
            the data, calculations, modeling assumptions, and rationale back to the source
            document for verification and validation. In addition, it recommends that IGCEs
            contain the name and signature of the document preparer. A successful acquisition
            process requires collaboration between the program and procurement offices.
            When a program office prepares a meaningful IGCE, the contracting officer can
            use that document to facilitate the determination of fair and reasonable pricing in
            the procurement process.

            OAM Contracts Management Manual

            OAM’s Contracts Management Manual states that project officers shall submit
            IGCEs for all contract actions, with a potential value in excess of $150,000
            (the Federal Acquisition Regulation [FAR] threshold) for simplified acquisitions.
            In addition, it states, that IGCEs “are an integral part of any effective acquisition
            program.” Section 7.3 of the manual specifies that the contracting officer will
            perform the necessary analysis leading to a decision to lease or purchase
            equipment considering comparative costs and other factors. It also states that the
            project officer and contracting officer share responsibility for making sure the
            procurement initiation package is complete. This package is required for all
            procurements above the FAR threshold.

            FAR Requirements for Contract Documentation

            FAR Part 4.801(b) states that the documentation in files shall be sufficient to
            constitute a complete history of the transaction. FAR Part 4.803(a) provides
            examples of records normally contained, if applicable, in contract files. These
            documents should include, but are not limited to, justifications and approvals,
            determinations, findings and associated documents, government estimate of
            contract price; a copy of each offer or quotation; source selection documentation;
            and cost or price analysis. FAR Part 4.803 also requires that federal agencies
            maintain documentation to evidence the contracting officer’s determination of a
            fair and reasonable price. FAR 4.1302 states that agencies must purchase only
            approved personal identity verification products and services. When acquiring
            personal identity verification products and services not using GSA Federal Supply
            Schedule 70, agencies must ensure and certify that the applicable products and
            services are approved as compliant with FIPS 201.




13-P-0200                                                                                      17
EPA Did Not Maintain Sufficient Documentation to Support PACS
Decisions

            We obtained IGCEs for most of the projects, although there were no IGCEs for
            three. We also identified questionable IGCE preparation practices for PACS
            upgrades. Contract files for some PACS upgrades were incomplete. SMD was
            unable to provide us with evidence of detailed cost analysis for PACS projects.

            Missing IGCEs

            SMD was unable to locate IGCEs for the following three PACS upgrade projects:
            Potomac Yard, Arlington, Virginia; Fort Meade, Maryland; and Montgomery,
            Alabama. All of these projects exceeded the $150,000 FAR threshold, making it
            mandatory that an IGCE be prepared, per OAM’s Contracts Management
            Manual. SMD paid contractors approximately $1.5 million for these three
            upgrades but was unable to produce IGCEs documenting SMD’s assessment of
            what the cost should have been in each case. Specifically:

               	 Potomac Yard project in 2006 (Contract GS07F0142L / EP06H001120):
                  EPA was unable to locate much of the documentation associated with this
                  contract, other than a copy of the order, dated February 16, 2006, and a
                  copy of Amendment 1 also from February 2006 that was a $4,623
                  de-obligation action to close out the file. Months after our original request,
                  OAM was able to produce a copy of the Request for Quotes and
                  correspondence related to bid evaluation. There was no IGCE for this
                  project.

               	 Fort Meade project started in 2008 (Contract GS-07F-7823C / EP-08H-
                  000750 / EP-08H-001533 / EP-G11H-00126): The file contained no
                  documentation of contractor performance or IGCE.

               	 Montgomery, Alabama, project in 2008 (Contract GS-Q7F-7823C /
                  EP-10H-001546): We found no IGCE in the file. SMD informed us it was
                  unable to locate a copy of the IGCE for that contract.

            Questionable IGCE Preparation Practices

            We found that the contract file for the Region 1 main building upgrade in Boston
            contained an IGCE prepared by SMD’s IGCE contractor consultant for the exact
            amount of the original procurement order for the primary PACS upgrade, or
            $2,322,852.08. When we asked the consultant about this, he acknowledged that he
            did not have support for the figures included in the IGCE and that he simply
            followed instructions from a former SMD manager to prepare an IGCE for the
            Boston project. The consultant told us that he “plugged” some numbers into
            certain cost categories on the IGCE template to make the total equal the contract
            award amount. He told us that he would not have done this on his own; someone

13-P-0200                                                                                     18
            at EPA instructed him to do it that way. In that instance, the IGCE that EPA
            prepared was essentially meaningless as it was simply prepared to match the
            award amount.

            We found several IGCEs that were not signed or dated and did not show evidence
            of EPA approval. Of 15 contracts we reviewed, 3 contained an IGCE prepared by
            the consultant. Through the end of 2011, documentation that we were provided
            showed that the consultant’s estimates were considered by SMD to be the final
            IGCE. We found that those IGCEs prepared by SMD’s consultant had the
            consultant’s name at the top but neither SMD nor OAM personnel signed the
            estimates. The later IGCEs that the SMD contracting officer’s representative
            prepared were not dated or signed by SMD or OAM staff. According to the
            contracting officer’s representative, he now includes his estimates in the
            procurement initiation notice package. However, he did not sign them or have other
            evidence demonstrating that the IGCE was considered final and approved. SMD
            staff acknowledged that the consultant’s estimate should not constitute the final
            estimate.

            Contract Files for PACS Projects Incomplete

            Contracts awarded between 2006 and 2010 were very poorly documented. In
            general, files did not contain evidence of contractor oversight, such as invoices,
            work progress reports, or certification of work completion. While both OEI and
            SMD acquired products and services from contractors that were not on GSA’s
            Qualified HSPD-12 Service Providers list, OAM did not always certify that all
            products procured were approved and complied with all federal requirements.
            OAM managers and staff said Statements of Work that they develop require
            vendors to propose only approved products. In one case, SMD had scramble pad
            readers installed at Region 6’s Addison, Texas, Continuity of Operations facility
            in 2009. According to SMD personnel, those card readers were not on GSA’s
            approved products list in 2009 and EPA should not have installed them. The
            PACS readers installed at that facility cost more than $497,000, and do not
            comply with Section 508 of the Americans with Disabilities Act. Region 6 asserts
            that it never wanted them but SMD gave them no choice. Region 6 facilities
            personnel told us that they are requesting that SMD replace them to match the
            card readers in Region 6’s main building.

            SMD Did Not Analyze PACS Costs

            SMD did not have a process in place to analyze actual costs from completed
            upgrades for future cost estimating purposes. In one case (Boston), SMD could
            not provide the actual cost of the PACS component of the installation contract.
            That contract included other security items such as closed circuit television. SMD
            said that the contractor quotes did not separate the price of the different
            components. As a result, this cost information was not available as a basis for
            comparison to evaluate subsequent procurements, as required by the criteria


13-P-0200                                                                                   19
            documents cited above. EPA awarded other contracts that also contained costs for
            security features in addition to PACS. In some cases, regional EPA contacts
            provided information to clarify PACS costs, but SMD was not able to provide us
            with the appropriate documentation. SMD’s contracting officer representative
            had, on his own initiative, attempted a comparison of contract costs in 2011 but
            was unable to include the above-cited contracts in the comparison. The
            contracting officer’s representative acknowledged he is not required to perform
            this kind of analysis as a part of his regular duties and his supervisor—the PACS
            Project Manager—was unaware that he had attempted the analysis.

Project and Contract Management Staff Did Not Assure Adequate
Data Were Maintained

            Lack of cost data and incomplete contract files resulted from issues within both
            the project management and contract management offices. When the PACS
            upgrades started, staff and management turnover was an issue. Some employees
            with responsibilities for the PACS contracts left, and neither SMD nor OAM
            could locate some of the file documentation. In addition, OAM’s contracting
            officers did not always ensure that the files contained necessary documents for
            some PACS contracts. SMD staff was not aware of the OAM IGCE Manual or the
            GAO Cost Estimating and Assessment Guide. SMD officials acknowledged they
            had not received training in this area. Further, SMD did not have a process in
            place to conduct and document cost analysis after projects were completed (for
            example, analyzing cost per reader/door, etc.) to gain assurance that future project
            costs were reasonable based on experience.

            In July 2012, GAO issued a report titled Information Technology Cost Estimation:
            Agencies Need to Address Significant Weaknesses in Policies and Practices
            (GAO-12-629). GAO reported that EPA information technology investments only
            partially met requirements for complying with cost-estimating best practices, and
            did not meet requirements for providing cost estimating training. EPA also did not
            have a process to collect and store cost-related data. GAO concluded that until
            weaknesses are addressed, it will be difficult for EPA to use cost estimates to
            make informed decisions, formulate realistic budgets, or meaningfully measure
            progress for information technology projects.

Conclusions

            EPA needs accountability for procurement decisions relating to PACS. SMD and
            OAM made procurement decisions without the benefit of required cost
            information. Of the $12.8 million EPA spent on PACS projects, it did not have
            the necessary documentation to show that the costs were fair and reasonable for
            $3.8 million (30 percent). In addition, EPA needs to ensure that it properly
            documents the cost analysis information in the future to ensure costs are
            reasonable and fair. According to EPA estimates, EPA plans to spend another


13-P-0200                                                                                    20
            $10.6 million on PACs upgrades. EPA should conduct cost analysis on these
            future upgrades to ensure fair and reasonable prices.

            There was no evidence that collaboration between SMD and OAM occurred.
            Furthermore, since the IGCEs were missing from some contract files, it appears
            that OAM did not use them at all in some cases. In addition, during the course of
            our review, SMD continually made revisions to the IGCEs that it had previously
            given us or changed its analysis. As a result, we were not confident that the data
            SMD was providing in the IGCEs was finalized or accurate.

Recommendations
            We recommend that the Assistant Administrator for Administration and
            Resources Management:

               4. 	 Hold contracting officers accountable for maintaining complete files for
                    PACS contracts, including documenting fair and reasonable price
                    determinations, progress and completion of contracted work, and
                    certifying that products for PACS procurements meet requirements in
                    FAR Part 4.1302.

               5. 	 Enforce applicable guidelines pertaining to IGCEs, including:

                       a.	 Preparing IGCEs for all procurement actions in excess of the FAR
                           threshold.

                       b.	 Adopting an official IGCE format that shall include the name and
                           signature of the preparer, the date prepared, and the signature of
                           the approving official.

                       c.	 Establishing a process that SMD can use to conduct and document
                           cost analyses of prior upgrades to ensure that future project costs
                           are reasonable.

                       d. 	 Establishing a requirement that SMD staff involved with preparing
                            and reviewing IGCEs certify that they have read OAM’s IGCE
                            Manual and understand the guidance.

Agency Comments and OIG Evaluation

            EPA concurred with recommendation 4, stating that audit findings in this chapter
            are consistent with similar findings that OAM reviews have found related to
            internal controls and oversight systems. EPA responded that to ensure file quality,
            OAM conducts multiple types of contract file reviews. In these reviews, contract
            file content is a significant review element. Findings from these reviews are


13-P-0200                                                                                      21
            provided to contracting officers for corrective action, if necessary, and used by
            OAM to identify policy gaps and possible training topics for contracting staff.

            EPA stated in its response to recommendation 4 that it already completed
            corrective actions before the end of December 2012 that address our
            recommendation. We requested that OAM send us information related to any such
            actions. According to OAM, it has implemented a Balanced Scorecard
            Performance Management and Measurement Program, which contains a self-
            assessment and peer review and oversight component. A primary purpose of the
            Peer Review and Self Assessment Checklist, dated August 2012, is to conduct file
            reviews to assess the quality of the contracting process at EPA, including
            thorough file reviews. We reviewed this document and believe that, if followed,
            these reviews would address our recommendation, so we consider
            recommendation 4 closed upon issuance of this report.

            EPA partially concurred with recommendation 5. Specifically, it agreed with
            recommendations 5a and 5b. For 5a, OAM stated that it agrees with the OIG that
            the IGCE policy as currently written does not distinguish between types of IGCEs
            or the level of detail required in IGCEs for different types of acquisitions. OAM
            agreed to review its current policy and provide more details and specific guidance
            pertaining to when an IGCE is required, at what threshold, and the level of detail
            required, to ensure the clarity, consistency, and significance of IGCEs prepared.
            OAM stated it would revise its policy by September 30, 2013. We agree with
            EPA’s proposed action and consider this recommendation resolved with
            corrective action pending.

            Regarding 5b, EPA responded that because each program in EPA is unique there
            is no “one-size-fits-all” IGCE format nor should there be. OAM agreed with the
            OIG that IGCEs should be thoughtfully prepared and reviewed. OAM is in the
            process of implementing EPA’s Paperless Acquisition Program. This is an
            initiative that allows cost estimates to be included with electronically submitted
            procurement packages. This includes information on who developed and
            approved the procurement information. EPA plans to have the system
            implemented by September 30, 2013. We agree that this new system will address
            recommendation 5b and consider the recommendation resolved with corrective
            action pending.

            Regarding recommendation 5c, OAM stated that the responsibility for conducting
            cost analysis resides with contracting officers, according to the FAR, and not with
            program offices. OAM further stated that its oversight program covers ensuring
            that cost analysis is performed. Regarding recommendation 5d, OAM said that
            training on IGCEs is part of the training that contracting officer representatives
            get before they are certified. As a result, OAM stated that it did not believe that a
            separate IGCE certification for SMD staff was necessary.




13-P-0200                                                                                       22
            Regarding recommendations 5c and 5d, we accept OAM’s rationale that cost
            analysis is to be performed by contracting officers. We also concur that OAM’s
            IGCE training for new contracting officer representatives should address our
            recommendation. Therefore, we consider recommendations 5c and 5d closed
            upon issuance of this report.

            For EPA’s detailed comments on this chapter and additional OIG responses, see
            appendix D.




13-P-0200                                                                                    23
                                Status of Recommendations and
                                  Potential Monetary Benefits

                                                                                                                               POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                   Planned
 Rec.     Page                                                                                                    Completion   Claimed    Agreed To
 No.       No.                            Subject                             Status1       Action Official          Date      Amount      Amount

   1        8     Re-prioritize the remaining facility upgrades by              O       Assistant Administrator   06/30/2014
                  security level from highest to lowest, complete all                    for Administration and
                  remaining upgrades according to security level, and                   Resources Management
                  require the SMD Director to provide written justification
                  for upgrading Level 1 facilities.

   2       14     Develop national policies and procedures for PACS             O       Assistant Administrator   03/31/2013
                  that foster consistent physical access to EPA offices                  for Administration and
                  around the country.                                                   Resources Management

   3       14     Establish one entity responsible for implementing and         O        Deputy Administrator     06/30/2013
                  overseeing the Agency’s smartcard program, including
                  physical and logical access.

   4       21     Hold contracting officers accountable                         C       Assistant Administrator   12/31/2012
                  for maintaining complete files for PACS contracts,                     for Administration and
                  including documenting fair and reasonable price                       Resources Management
                  determinations, progress and completion of contracted
                  work, and certifying that products for PACS
                  procurements meet requirements in FAR Part 4.1302.

   5       21     Enforce applicable guidelines pertaining to IGCEs,                    Assistant Administrator
                  including:                                                             for Administration and
                     a. Preparing IGCEs for all procurement actions in          O       Resources Management 09/30/2013
                        excess of the FAR threshold.
                     b. Adopting an official IGCE format that shall             O                                 09/30/2013
                        include the name and signature of the preparer,
                        the date prepared, and the signature of the
                        approving official.
                     c. Establishing a process that SMD can use to              C                                 12/21/2012
                         conduct and document cost analyses of prior
                         upgrades to ensure that future project costs are
                         reasonable.
                     d. Establishing a requirement that SMD staff               C                                 12/21/2012
                        involved with preparing and reviewing IGCEs
                        certify that they have read OAM’s IGCE Manual
                        and understand the guidance.




O = recommendation is open with agreed-to corrective actions pending
C = recommendation is closed with all agreed-to actions completed
U = recommendation is unresolved with resolution efforts in progress




13-P-0200                                                                                                                                        24
                                                                                   Appendix A

                 Details on Scope and Methodology
During our audit, we reviewed:

      HSPD-12 and associated criteria including FIPS 201 and OMB Memos M-05-24,
       M-06-18, and M-11-11
      EPA plans and policies regarding smartcard implementation
      All contracts that were awarded to upgrade physical and logical access control systems to
       comply with HSPD-12
      IGCEs and other cost-related documents for PACS contracts

During our audit, we interviewed:

      SMD’s Director and Deputy Director, as well as the PACS project manager and other staff
      OEI Senior Agency Information Security Officer and staff
      EPA PACS coordinators from all regions where PACS were upgraded
      The EPA contractor who prepared PACS cost estimates for SMD
      OAM contract management staff
      DHS’ Identity Management Division Chief

We issued a survey to individuals who SMD and OEI designated as primary contacts for
physical and logical access systems. We issued the survey to ensure we received widespread
input relating to EPA’s progress in implementing HSPD-12.

We conducted a site visit to EPA’s Region 1 located in the McCormack Building in Boston,
Massachusetts. We selected Region 1 for a site visit because, of all of the completed upgrades,
its upgrades were the most costly.

We coordinated with OMB’s Assistant General Counsel on specific parts of its HSPD-12-related
memos.




13-P-0200                                                                                         25
                                                                                                Appendix B

                  Prior OIG and GAO Audit Reports
EPA OIG Reports
Report                                                                 Recommendations/corrective
                        HSPD-12 issues identified
number / date                                                                  actions
09-P-0233,       EPA did not properly account for all property      EPA needed to use established procedures
September 2009   for implementing the issuance of smartcards        to resolve accountability for the missing
                 under HSPD-12. The OIG found that: (1) four        property, and review accuracy of HSPD-12
                 pieces of property valued at $29,538 were          property information. EPA also needed to
                 missing and not recorded in fixed assets           modify the HSPD-12 contract to reflect
                 subsystem, (2) acquisition costs in fixed assets   contractor requirements and accountability
                 subsystem were incorrect for some equipment,       for using government property in
                 and (3) EPA did not accurately record required     government facilities.
                 nonfinancial information for several pieces of
                 property.                                          EPA established a December 2009
                                                                    milestone for resolving missing HSPD-12
                                                                    property and updating the Fixed Assets
                                                                    Subsystem with accurate records. The
                                                                    Agency also modified the contract on July
                                                                    22, 2009, to reflect contractor requirements
                                                                    and accountability for the HSPD-12
                                                                    property.

08-P-0271,       EPA did not require the EPASS contractor to        EPA needed to (a) develop and maintain an
September 2008   follow Agency procedures for developing            EPASS System Management Plan,
                 smartcards. EPASS did not have a certified         (b) appoint an EPASS Project Manager,
                 Project Manager authorized to oversee the          (c) outline and reinforce compliance with
                 contractor’s work. EPA also paid for contractor    EPA invoice reviewing guidance, and
                 labor overcharges worth over $75,000.              (d) ensure EPA collects from the contractor
                                                                    the amount EPA overpaid for billing rate
                                                                    errors.

                                                                    EPA agreed to address the
                                                                    recommendations contained in (a), (b), and
                                                                    (c) by January 2009. EPA reported it had
                                                                    already addressed recommendation (d) at
                                                                    the time its corrective action plan was
                                                                    issued.

08-P-0267,       An employee’s ID card had the ID documents         EPA needed to (a) update card issuance
September 2008   and other identifying information of another       procedures (including visually inspecting ID
                 EPA employee. EPA procedures did not               documents and comparing them to
                 require EPASS staff to visually inspect            applicant), (b) create incident-handling
                 employees’ ID documents. EPA also lacked           procedures when errors occur, and (c) create
                 procedures for handling and disposing of           and implement procedures for disposal of
                 defective smartcard badges.                        defective ID badges.

                                                                    EPA agreed with all three recommendations
                                                                    and planned to complete all three by
                                                                    December 2008.


13-P-0200                                                                                                     26
DHS OIG Reports

Report
                        HSPD-12 issues identified                         Effects/recommendations
number / date
DHS OIG-10-40,   Resources and security issues hinder DHS’          More work remains to ensure that DHS
January 2010     implementation of HSPD-12. DHS does not            consolidates its infrastructures to support
                 have a plan to implement successfully a robust     HSPD-12 program. In addition, DHS needs
                 program to increase physical and logical access    an interface between the card issuance
                 security within the department. The absence of     system, Identity Management System, and
                 an HSPD-12 program implementation plan,            PACS. Necessary facility upgrades need to
                 department-wide deployment strategy, and           be completed at component locations to
                 sufficient resources are hindering progress.       ensure personal identity verification cards
                 Components currently have their own                are inter-operable with DHS’ physical and
                 individual physical access control systems,        logical access control systems.
                 which will need to be consolidated into DHS’
                 Headquarters PACS sometime in the future.
DHS OIG-08-01,   DHS has made progress but more work remains        DHS does not have a certified and
October 2007     in meeting HSPD-12 requirements.                   accredited operational system to support the
                 DHS has not: (1) effectively managed the           implementation of HSPD-12. Specifically,
                 implementation to ensure that the department       DHS has not acquired the capability to issue
                 can meet all mandated milestones, (2) provided     PIV cards to its headquarters employees and
                 its components with sufficient guidance for        contractors, and bring its system to
                 their sites implementation of HSPD-12,             production readiness.
                 (3) complied with OMB implementation
                 reporting instructions, (4) identified to what
                 extent PIV cards will be used or required in
                 order to access facilities or information
                 systems, and (5) determined which facilities
                 will require PIV cards in order to gain physical
                 access.




13-P-0200                                                                                                    27
GSA OIG Report

Report
                            HSPD-12 issues identified                       Effects/recommendations
number / date
GSA OIG               GSA hindered implementation of the               Although GSA has provided guidance and
A040111/P/R/R05002,   smartcard credentials by a lack of a vision      procurement vehicles for agencies to
January 2005          for incorporating the smartcard credential as    implement smartcards, until recently it had
                      a component of agency-wide security. As a        made only limited progress in
                      result, the credentialing program will have      implementing smartcards within the
                      only a limited impact on the security over       agency.
                      physical access to buildings and facilities
                      due to a variety of factors, including
                      inconsistent controls and a lack of
                      supporting infrastructure. Further, other
                      aspects of the smartcard initiative—such as
                      integrated security practices, inter-
                      operability, and procurement issues—
                      will also be problematic for an effective
                      implementation.

GAO Reports

Report
                         HSPD-12 issues identified                          Effects/recommendations
number / date
GAO-06-178,      The federal government faces significant             Until agencies address implementation
February 2006    challenges in implementing FIPS 201. It will be      challenges, the federal government may not
                 a challenge to test and acquire compliant            fully realize the benefits of FIPS 201.
                 commercial products—such as smartcards and           Specifically, agencies may not be able to
                 card readers—within required periods, and            meet implementation deadlines established
                 reconcile divergent implementation                   by OMB, and more importantly, true inter-
                 specifications. Incomplete guidance regarding        operability among federal government
                 the applicability of FIPS 201 to facilities,         agencies’ smartcard programs—one of the
                 people, and information systems is a potential       major goals of FIPS 201—may not be
                 for substantial cost increases.                      achieved.
GAO-05-84T,      While smartcard technology offers benefits,          The successful adoption of smartcards
October 2004     launching smartcard projects—whether large or        throughout the federal government has been
                 small—has proved challenging to federal              a challenging task, and federal agencies’
                 agencies and efforts to sustain successful           adoption of this technology continues to
                 adoption of the technology remains difficult.        evolve.




13-P-0200                                                                                                      28
                                                                                                  Appendix C


            List of Contracts Awarded as of March 2012
                         for PACS Upgrades
#             Contract # / Order                                  Location                           Actual Cost
1      GS07F0142L / EP06H001120             HQ: Potomac Yard, Arlington, VA                              $560,229
2      RWA N0043821 Amendment #4            Region 6: COOP - Addison, TX                                  829,584
       RWA B0334475
3      RWA A0550220                         Region 1: HQ - Boston, MA                                   3,081,709
       RWA A0786418

                                            Cincinnati, OH: AWBERC, Norwood, Center Hill,
4      GS07F0103M DO#5                                                                                    393,374
                                            Test and Evaluation; Erlanger, KY

       GS07F0317K / EP09H001359             Region 8: HQ Denver, CO; NEIC, NETI (Lakewood,
5                                                                                                         900,477
       GS07F0317K / EP09H001605             CO); Golden, CO; Helena, MT

       GS07F0317K / EP10H000322
                                            Research Triangle Park: Mega Labs A/B, C, D/E,
6      GS07F0317K / EP10H001635             High Bay; NCC, FEELC, Page Road; Durham /                   1,139,396
                                            Chapel Hill, NC
       EP10H001578
7      GS07F0317K / EP10H002003             Region 6: HQ - Dallas, TX                                     823,094
       GS07F7823C / EP08H000750
8      EP10H001533                          Fort Meade, MD                                                255,763
       GS-07F-7823C/ EP-GIIH-0012 6
9      GS07F7823C / EP08H001546             Montgomery, AL                                                687,821
10     GS07F0450K / EP10H002195             Region 5: HQ, Lab; COOP - Willowbrook, IL                     778,790
                                            Region 3: HQ - Philadelphia, PA; Boothwyn, PA;
11     GS07F0489V / EP10H002230                                                                           530,394
                                            Linwood, PA; Wheeling, WV
12     GS-07F-0317F/ EP-G11H-00204          Ann Arbor Laboratory, MI                                      940,644
13     GS-07F-0178W/ EPG11H000667           Guaynabo, Puerto Rico                                         587,669
                                            Region 2: HQ - New York, NY; Edison Lab, Edison,
14     EP11H000874                                                                                      1,481,898
                                            NJ
                                            Region 4: HQ - Atlanta, GA; ERD, SESD, Athens,
15     GS07F450K / EPG11H00248                                                                            983,985
                                            GA
    Total                                                                                           $13,974.828 1
Source: EPA’s SMD



1
 The dollar amounts in the table above, in some cases, are higher than the amount EPA spent specifically for PACS.
This is because several of those contracts included costs for other security upgrades such as CCTV.

13-P-0200                                                                                                      29
                                                                                    Appendix D

                                Agency Response
                                       December 21, 2012

MEMORANDUM

SUBJECT:	 Response to Office of Inspector General Draft Report No. OA-FY11-1789,
          “Improvements Needed in EPA’s Smartcard Program to Ensure Consistent
          Physical Access Procedures and Cost Reasonableness,” dated November 8, 2012

FROM:	         Renee Page
               Director, Office of Administration

               John R. Bashista        

               Director, Office of Acquisitions Management 


TO:	           Melissa Heist
               Assistant Inspector General for Audit

Thank you for the opportunity to respond to the issues and recommendations in the subject draft
audit report. Following is a summary of the agency’s overall position, along with its position on
each of the report recommendations. For those report recommendations with which the agency
agrees, we have provided high-level intended corrective actions and estimated completion dates
to the extent we can. For those report recommendations with which the agency does not agree,
we have explained our position and proposed alternatives to recommendations. We have also
addressed selected factual inaccuracies in the report.

AGENCY’S OVERALL POSITION

Of the three major components of the federal smart card program–the badge, physical access
control and logical access control–the Office of Administration is responsible for the first two.
Regarding the primary subject of this draft report, physical access control, EPA is compliant with
all applicable federal requirements and technical standards. We disagree with Recommendations
1 and 2 and all related text indicating we are not compliant. We agree with Recommendation 3.
The report as a whole presents an inaccurate picture of the EPASS physical access control
program. The majority of conclusions concerning physical access are not supported by sufficient
and relevant evidence and are not logical inferences about the program.

Regarding the contracts-related portions of the report, the Office of Acquisition Management
agrees with Recommendation 4; the findings in the draft report are consistent with similar
findings under the Office of Acquisition Management’s previous quality assurance program,
which indicated a need to improve EPA’s acquisition-related internal controls and oversight
systems. OAM partially agrees with Recommendation 5, and believes the documentation
supporting the sub-recommendations inflates the level of significance of the findings.

13-P-0200                                                                                       30
AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS

Agreements

                                                                                   Estimated
                                                   High-Level Intended
No.             Recommendation                                                   Completion by
                                                   Corrective Action(s)
                                                                                 Quarter and FY
      Establish one entity responsible for   Under direction of the Deputy
      implementing and overseeing the        Administrator, relevant
      agency’s smartcard program,            stakeholders will convene to
 3                                                                            Q3 FY 2013
      including physical and logical         determine the entity responsible
      access.                                for implementing and overseeing
                                             the program.
     Hold contracting officers
     accountable for maintaining
     complete files for PACS contracts,
     including documenting fair and
     reasonable price determinations,                                            Completed
 4                                           See discussion below
     progress and completion of                                                  Q1 FY 2013
     contracted work, and certifying that
     products for PACS procurements
     meet requirements in FAR Part
     4.1302.
     Enforce applicable guidelines
     pertaining to IGCE, including:
     a. Preparing IGCEs for all
                                                                                 a. Q4 FY
         procurement actions in excess of
                                                                                    2013
         the FAR threshold.
                                                                                 b. Completed
5a-b b. Adopting an official IGCE            See discussion below
                                                                                    Q1 FY
         format that shall include the
                                                                                    2013
         name and signature of the
         preparer, the date prepared, and
         the signature of the approving
         official.


Recommendation 4

OARM/OAM agrees with this recommendation. Acquisition Handbook Chapters 4 and 42, and
Contract Management Manual Chapters 7 and 42, contain significant policy and guidance
pertaining to contract file documentation, such as required supporting documentation, approvals,
and checklists. Findings in the Draft Report are consistent with similar findings under OAM’s
previous Quality Assurance Program which indicated a need to improve EPA’s acquisition-
related internal controls and oversight systems. As such, in FY 2011 OAM implemented the
Balanced Scorecard (BSC) Performance Measurement and Management Program. Under the

13-P-0200                                                                                     31
BSC Program, OAM uses a combination of objective performance measures, quality assurance
plans, self-assessment reviews, peer reviews, and training, to review, ensure and facilitate
compliance with procurement statutes, regulations, policies, procedures, and other guidance.

To ensure file quality, OAM conducts multiple types of contract file reviews including: routine
peer reviews and random sampling file reviews in accordance with contracting office Quality
Assurance Plans (QAPs), and Self-Assessment Reviews under the OAM-wide Contract
Management Assessment Program (CMAP) review. In each of these reviews, contract file
content in terms of compliance and quality are meaningful review elements. Findings resulting
from these reviews are provided to the Contracting Officers of record for corrective action if
necessary, and are used by the organization to identify policy gaps, and as possible training
topics for contracting staff.

Recommendation 5

As a general comment on the OIG’s review in this area, OAM believes the documentation
supporting these recommendations inflates the level of significance of these findings. Of the 22
files cited in the report, 18 were for the acquisition of supplies or services that meet the definition
of a commercial item so a detailed IGCE is not required, 16 were acquired on a firm-fixed-price
basis so a detailed IGCE is not required, 15 were for GSA Schedule orders so a detailed IGCE
was not required, and 6 were valued at less than the Simplified Acquisition Threshold so an
IGCE was not required. However, OAM continues to make efforts to ensure proper IGCEs are
developed with new procurement packages as required by CMM 7.3.5.7. In October 2012, OAM
released Interim Policy Notice 12-03 – Acquisition Planning, which puts greater emphasis on the
combined planning efforts (including the development of IGCEs) of the program and contracting
offices for each new acquisition greater than the SAT.

Sub-recommendation a: Having raised these anomalies, OAM agrees IGCE policy as currently
written fails to distinguish between different types of IGCEs or the level of detail required in an
IGCE for different types of acquisitions. As indicated above, many of the contract files reviewed
in this audit were for commercial item products acquired competitively on a firm-fixed-price
(FFP) basis through contracts managed by the General Services Administration (i.e. GSA
Schedule Contracts). Competitive orders for FFP commercial item products through GSA
Schedule Contracts do not rely on a detailed estimate of cost elements found in an IGCE as the
basis for fair and reasonable pricing. In these instances, the most appropriate type of IGCE would
be for a “Price Estimate” which the Federal Acquisition Institute (FAI) describes as “a bottom
line firm-fixed price”. Accordingly, OAM will review current policy to provide more details and
specific guidance on the circumstances under which an IGCE is required, including at what
threshold, as well as the content and level of detail and documentation required, to ensure clarity
and consistency of IGCE’s, and also to ensure IGCE’s serve as meaningful tools in the
acquisition process.

Sub-recommendation b: The EPA Guide for Preparing Independent Government Cost
Estimates, June 2010 published on OAM’s web-site contains information and guidance on the
types, methodologies, and techniques for developing IGCE’s, as well as samples and approaches.
However, emphasis on the program specific nature of the IGCE is a common theme throughout


13-P-0200                                                                                           32
the guide, and as such there is no way to develop a “one-size-fits-all” IGCE format. OAM does
agree that IGCE’s should be thoughtfully prepared and reviewed. To that end, OAM is currently
developing a Paperless Acquisition Program to receive procurement documentation exclusively
in electronic format through the Agency’s acquisition system, EAS. EAS allows program offices
with new contract requirements to attach supporting documents (including IGCEs) into an
electronic requisition and route through the program office for review and approval. OAM
believes creation of this electronic record will both increase the efficiency of the procurement
process, but also satisfy sub-recommendation b.

Disagreements

                                            Agency Explanation/
No.             Recommendation                                         Proposed Alternative
                                                Response
                                                                    Continue with current
                                                                    implementation sequencing,
                                                                    which in large part achieves
                                                                    the aim of the
      Reprioritize the remaining facility
                                                                    recommendation: all
      upgrades by security level from
                                                                    remaining Facility Security
      highest to lowest, complete all
                                                                    Level (FSL) 4 upgrades will
      remaining upgrades according to
 1                                          See discussion below    have been initiated by Q2
      security level, and require the
                                                                    FY13; all FSL 3s by Q3
      SMD director to provide written
                                                                    FY13; all 2s by Q3 FY14.
      justification for upgrading Level 1
                                                                    The SMD Director will
      facilities.
                                                                    provide written justification
                                                                    to the OARM Assistant
                                                                    Administrator for any FSL 1
                                                                    upgrades.
                                                                    Submit for EPA directives
                                                                    clearance process a draft
      Develop national policies and                                 EPA-wide policy, Use of the
      procedures for PACS that foster                               PIV Card for Facility
 2    consistent and inter-operable         See discussion below    Access, Q2 FY 2013. Create
      physical access to EPA offices                                and disseminate outreach on
      around the country.                                           existing inter-operable
                                                                    capabilities to regional
                                                                    personnel, Q2 FY 2013.




13-P-0200                                                                                     33
                                             Agency Explanation/
No.            Recommendation                                             Proposed Alternative
                                                 Response
     Enforce applicable guidelines
     pertaining to IGCE, including:
     c. Establishing a process that
         SMD staff can use to conduct
         and document cost analyses of
         prior upgrades to ensure that
         future project costs are
5c-d                                         See discussion below     N/A
         reasonable.
     d. Establishing a requirement that
         SMD staff involved with
         preparing and reviewing
         IGCEs certify that they have
         read OAM’s IGCE Manual
         and understand the guidance.



Recommendation 1

OA disagrees with Recommendation 1 for the following reasons (explained in more detail
below): Facility security level is one, but not the only, criterion for prioritizing PACS projects;
the rationale for the recommendation, “...some facilities housing hundreds or even thousands of
employees along with other important assets did not require the higher level of authentication to
gain access as some facilities of lesser value and importance” (p. 7) is not supported by evidence
and confuses the role of authentication; and any reprioritizing at this advanced stage of the
overall PACS project would be costly and unnecessary, particularly since the remaining
sequencing in large part accomplishes the aim of the recommendation.

   OIG Comment: At the time we completed our work, EPA had not upgraded Security
   Level 4 facilities within headquarters. Access to these facilities is gained by showing a
   badge to a security guard rather than using a smartcard badge and a PACS reader.
   Conversely, in other locations, EPA did update some lower level facilities with PACS
   readers. In one case, EPA upgraded a vehicle storage building that did not permanently
   house any EPA employees. EPA’s most critical assets, where more people and other
   important resources reside, should be upgraded before its lower level facilities.


       Security level is not the only criterion for prioritizing: EPA’s PACS program is
       accountable to OMB, and nowhere does OMB stipulate that PACS be upgraded
       according to facility security level (FSL). The report’s statement, “Eight years after
       President Bush signed HSPD-12, EPA has not upgraded all of its most critical facilities,”
       (p. 7), is not relevant since OMB leaves sequencing to the agencies. EPA is fully
       compliant with its OMB plan, which is to install PIV-enabled PACS at 5-8 facilities per
       year, with completion by the end of FY 2015.

13-P-0200                                                                                        34
    OIG Comment: In 2008, EPA provided OEI’s HSPD-12 Physical Access Controls
    and Logical Access Controls Plan to OMB. In 2009, EPA issued its EPASS Project
    Management Plan. Both plans laid out the priority in which EPA would upgrade PACS.
    They documented that EPA would upgrade new construction or leases first, followed by
    facilities based on security level ratings. The 2008 plan stated, “…EPA will mitigate its
    highest risks first thus protecting our higher valued targets early on in the
    implementation process.” The plan also stated that EPA would complete upgrading all
    of its Security Level 4 facilities by December 2011. Similar to EPA Order 3200, the
    2008 plan also stated that existing Security Level 1 facilities would not be upgraded.
    We continue to believe that EPA did not follow the plan as submitted to OMB.


      Likewise, HSPD-12 and its implementing standards do not stipulate PACS sequencing or
      that PACS be upgraded according to FSL. FSL is derived from an Interagency Security
      Committee (ISC) 2008 standard, Facility Security Level Determinations for Federal
      Facilities. That standard defines FSL as a “categorization based on the analysis of several
      security-related facility factors, which then serves as the basis for the implementation of
      certain protective security measures specified in other ISC standards” (p. 2), not in
      HSPD-12 standards. EPA complies with the ISC’s 2010 Physical Security Criteria for
      Federal Facilities to mitigate vulnerabilities by FSL-appropriate means, agency wide,
      including vulnerabilities related to facility access controls. The ISC standard does not
      mention PIV-enabled PACS among physical access control protective measures.

    OIG Comment: EPA’s comments in the preceding paragraph do not include all of the
    criteria for which it was accountable. EPA did not follow the process for upgrading the
    PACS program that was defined in the plans it submitted to OMB in 2008 or EPA
    Order 3200—the Agency’s policy for implementing EPA’s smartcard program. Our
    report does not recommend any changes to processes and procedures where EPA is
    already compliant. Instead, our recommendations target those areas where EPA has not
    been compliant.

      EPA’s PACS sequencing has evolved since 2005, as is appropriate, to reflect new and
      changing technical standards, federal priorities, enhanced technology, the ability to
      network PACS, lessons learned, and opportunities to decrease waste and improve
      efficiency and cost effectiveness. EPA considers FSLs in sequencing PACS upgrades, but
      also considers existing PACS that are failing, new construction or leases, and facilities
      housing critical infrastructure and key resources. Please note that at EPA, some critical
      infrastructure and systems (such as those in COOP facilities) are housed in facilities that,
      per ISC standards, are FSL 1 or 2 because of their small size, small population and lack
      of symbolic importance.

      On a case-by-case basis, certain facilities that are in close proximity to priority PACS
      implementation sites and that would eventually be scheduled for PACS upgrades are
      included with nearby, higher-priority projects to reduce cost, improve efficiency, and
      align IT infrastructure. To give a dramatic example of the cost efficiencies gained:
           At an earlier phase of the PACS program, the Region 6 Addison and Dallas
              facilities, with approximately 150 card readers between them, were upgraded
              under separate contracts for a combined cost of $1,283,665.


13-P-0200                                                                                        35
            	 The Region 2 New York and Edison facilities, with over 200 card readers
               between them, were upgraded under a single contract at a cost of $909,290.

      OA agrees with the OIG that we should have updated documents that referenced the
      sequencing plans. We have revised the PACS-related section of our 2012 submission to
      OMB to reflect our current sequencing considerations (although that is not required) and
      we have updated our EPASS project management plan. EPA Order 3200, EPA Personal
      Identity Verification and Smartcard Program, will be updated in CY 2013 by a one-EPA
      team of stakeholders, and any reference to PACS sequencing will be deleted.

       OIG Comment: We are pleased that EPA agrees that they should have updated
       these critical documents earlier. These official documents stated EPA’s plans for
       upgrading facilities in terms of the number to be upgraded and by what date. The
       documents represented the official EPA plans and as such should have been
       revised when SMD knew it was changing its plans.

      Authentication is not a sequencing issue: The following OIG conclusions reflect a
      misunderstanding of the role of identity verification and authentication:
          “...some of EPA’s most critical facilities do not require as stringent an identity
            verification process for access as some of its least important facilities” (p. 4).
          “...some facilities housing hundreds or even thousands of employees along with
            other important assets did not require the higher level of authentication to gain
            access as some facilities of lesser value and importance” (p. 7).

      First, no federal mandate or standard, including the HSPD-12 implementing standard
      FIPS 201-1, stipulates that identity verification or authentication determine the order of
      PIV-enabled PACS implementation. Per FIPS 201-1: “PIV Cards can be used for identity
      authentication in environments that are equipped with card readers as well as those that
      lack card readers” (p. 46). FIPS 201-1 defines authentication as: “The process of
      establishing confidence of authenticity; in this case in the validity of a person’s identity
      and the PIV card” (p. 70). In addition, 99% of EPA federal employees (95% of all
      personnel when non-federal employees are included) have completed HSPD-12-
      mandated identity verification and authentication in the form of a background
      investigation, identity proofing, and PIV card/EPASS badge issuance.

       OIG Comment: The comments in the preceding paragraph relate to requirements
       for smartcard identification badges. The content in our report deals with EPA’s
       implementation and use of PACS along with the smartcard badge. The smartcard
       badges are just one piece of the overall physical access process. Our report raises
       issues EPA needs to address to improve its overall process for physical access.


      Second, OIG conclusions are based on subjective characterizations of facilities as “most
      critical (p. 4),” “less critical (At a Glance), “least important (p. 4),” “most important (At a
      Glance),” “critical and most valued (p. 4),” “of lesser value and importance (p. 7).” No
      physical security standard or smartcard mandate ranks buildings as most or least

13-P-0200                                                                                         36
      important, most or least critical, or most or least valuable. Although the report claims to
      cite the ISC Facility Security Level Determinations for Federal Facilities, “Level 4
      facilities are also of high importance and require the next highest degree of protection,
      and so forth down to Level 1 facilities” (p. 5), the ISC standard does not state that. Per
      ISC standards, protective measures are based on a risk management system that considers
      FSL, identification of a baseline Level of Protection (LOP), and determination of
      acceptable levels of risk. Again, PIV-enabled PACS are not among the protective
      measures addressed in the ISC Physical Security Criteria for Federal Facilities.

       OIG Comment: The document titled Facility Security Level Determinations for
       Federal Facilities explains and defines the hierarchy of rankings that federal
       agencies should use to determine the level of each facility. That document states
       that the higher the designated level of a facility the more valuable and critical
       that facility is to achieving an agency’s mission. It also states that the degree of
       protection should be commensurate with each designated security level, with
       higher security levels requiring greater protection. While the standard titled
       Physical Security Criteria for Federal Facilities may not specifically discuss
       PIV-enabled PACS, the purpose of the smartcards and related systems are to
       increase and improve security and protection.

      The OIG’s conclusion that the agency’s PACS upgrade sequencing has somehow left
      “hundreds and even thousands of EPA employees” (p. 5) at risk is not logical and not
      supported by fact. The agency mitigates risk and vulnerability at all facilities per ISC
      standards, in which PIV-enabled PACS figure not at all.

       OIG Comment: As stated in our comment above, Security Level 4 facilities, by
       definition, are higher value assets, and EPA states the same in the plan it
       submitted to OMB in 2008. Further, having operational PACS in place at such
       facilities provides an additional layer of security by increasing the number of
       levels of authentication needed to gain access. EPA asserts that PACS systems
       do not add security over what was in place. If PACS systems add no additional
       security, this raises the question why EPA would plan to spend nearly $56
       million on this program. EPA is complying with HSPD-12 and subsequent
       requirements because the smartcard and associated systems increase security and
       safety, which was the intent behind HSPD-12.



      The majority of upgrades have already been initiated: Making changes to PACS
      sequencing at this late stage of the program would be costly, disruptive and unnecessary,
      not only for the reasons above, but because the remaining schedule largely accomplishes
      the aim of the OIG recommendation. The contracts for the remaining Level 4 upgrades
      will be awarded in Q2 FY 2013. All remaining Level 3 upgrades are scheduled for award
      by Q3 FY 2013 and all remaining Level 2 upgrades by Q3 FY14.




13-P-0200                                                                                        37
Proposed Alternative:
Continue with current implementation sequencing, which in large part achieves the aim of the
recommendation: all remaining FSL 4 upgrades will be initiated by Q2 FY 2013; all FSL 3s by
Q3 FY 2013; and all FSL 2s by Q3 FY14. The SMD Director will provide written justification to
the Assistant Administrator of OARM for any FSL 1 projects.

   OIG Comment: We agree with EPA’s proposed alternative to complete Security Level 4
   facilities before completing upgrades to lower level facilities, and that the SMD Director
   will provide written justification to the Assistant Administrator for OARM prior to
   updating any Security Level 1 facilities.

Recommendation 2

Our disagreement is with the presence of the word “inter-operable” in the recommendation and
the misunderstanding it represents. The EPASS badge, per FIPS 201 requirements, is inherently
intra-operable across the agency and inter-operable with other agencies. Within EPA, any
EPASS badge can be authenticated and granted access to any PIV-enabled PACS. EPA PIV-
enabled PACS can authenticate PIV cards issued by other agencies, and our EPASS badges are
accepted at other agencies’ PIV-enabled PACS. The EPASS badge and PACS programs fully
support inter- and intra-operability in compliance with all governing authorities and technical
standards; all statements in the draft audit indicating otherwise are incorrect (see additional
comments on accuracy of draft report, below).

   OIG Comment: We understand that the EPASS badge is designed and produced to have
   the capabilities to be both intra- and inter-operable and we do not question that in this
   report. The point we make in chapter 3 is that, in practice, these security systems at EPA
   facilities across the country are operated in dissimilar ways and were not fostering
   consistent access to facilities by EPA employees. We believe that EPA’s response is one
   related to semantics rather than substance as EPA states that it has been lacking
   nationwide policies and procedures that foster consistent facility access using the
   smartcard (see next OIG comment).


What is lacking is not intra- and inter-operability, but rather: 1) a clear local understanding of the
intra- and inter-operable capabilities of Personal Identity Verification (PIV) cards and existing
PACS; and 2) agencywide policy on use of the PIV card for facility access. The proposed
alternative below addresses both of these issues. We agree with the OIG that fostering consistent
facility access procedures is important, with the understanding that procedures need to be
responsive to local security conditions and the wide range of real estate arrangements at EPA. One
size cannot fit all when circumstances include EPA-owned and leased, privately owned, GSA-
owned and leased, single and multi-tenant, and mixed federal and private tenant arrangements.

    OIG Comment: We agree with EPA that what has been lacking is a national EPA-wide
    policy and procedures for ensuring consistent access procedures for all EPA employees.


13-P-0200                                                                                         38
Proposed Alternative:
OARM requests that the words “and inter-operable” be removed from Recommendation 2 so that
we can fully agree with the text. We are planning to foster consistent facility access control
procedures and improve regional understanding of intra- and inter-operable capabilities of
existing PACS. To achieve this, OARM will create and disseminate to regional personnel
outreach on existing inter-operable capabilities in Q2 FY 2013. EPA will also submit for the
directives clearance process an EPA-wide policy, Use of the PIV Card for Facility Access, in Q2
FY 2013. The policy is the result of a one-EPA effort and addresses the requirements for
permitting unescorted access to EPA facilities where physical access is controlled by a PIV-
enabled PACS. The purpose of the policy is to:
     Provide consistent application of physical access controls
     Describe requirements for granting access to PIV-enabled EPA-controlled buildings and
        spaces
     Define the security roles and responsibilities of all parties involved in granting access to
        EPA facilities

  OIG Comment: We removed the words “and inter-operable” from recommendation 2 in
  our draft report. As currently implemented, EPA’s PACS and smartcard badges do not
  allow consistent facility access to EPA and other federal employees as intended. We do
  agree with EPA’s proposed recommendation to develop and implement a policy that will
  allow for consistent facility access control procedures and improve regional understanding
  of intra- and inter-operable capabilities before March 31, 2013.


Recommendation 5c-d (see general comment under Recommendation 5, above)

Sub-recommendation c: The intent and basis for this recommendation is unclear, and as such,
OAM is unable to provide a response without further clarification/information from the OIG.
The FAR (3.501-2, 15.305, 15.402, 15.404, 15.405, 15.406, 43.204) sets forth responsibility for
conducting cost analysis with the Contracting Officer. Accordingly, the recommendation to
establish a process to ensure SMD conducts cost analysis assigns responsibility for this critical
function contrary to regulation. With regard to ensuring adequate cost analysis is performed,
OAM’s oversight program is described in the response to recommendation 4 above.

  OIG Comment: The intent of this recommendation is to ensure that SMD considers cost
  through meaningful analysis before spending taxpayer dollars on its programs. We are not
  suggesting that OARM removes responsibility from contracting officers. We believe cost
  analysis is a useful and necessary process across all programs and divisions that use
  contractors to carry out EPA’s mission. The EPA Guide for Preparing Independent
  Government Cost Estimates, prepared by OAM, states, “The FAR considers IGCE’s an
  integral part of the acquisition process. A successful acquisition process requires
  collaboration between the program and procurement offices. When a Program Office
  prepares a meaningful IGCE, the CO may use that document to facilitate the determination
  of fair and reasonable pricing in the procurement process. As a result, all parties benefit from
  a well prepared IGCE.”


13-P-0200                                                                                        39
Sub-recommendation d: OAM makes training on IGCE’s available to through various OAM
sponsored and conducted training sessions. Additionally, under the new three tiered COR
training and certification program, OAM will continue to ensure the COR curriculum includes
training on IGCE’s. Accordingly, completion of IGCE training is incorporated under COR
certification. As a result, OAM believes that the separate IGCE training certification
recommended by the OIG is both redundant and unnecessary.

   OIG Comment: We agree with the action EPA has taken to make IGCE training
   available. However, in a face-to-face interview on March 20, 2012, in Washington, DC,
   the SMD PACS project manager and an SMD contracting officer representative both told
   us that they: (1) were not familiar with the EPA Guide for Preparing Independent
   Government Cost Estimates or the GAO Cost Estimating and Assessment Guide, and (2)
   had not been offered any training on preparing IGCEs in general. Therefore, EPA should
   ensure that appropriate staff are aware of available IGCE training and take the training.

Some Additional Factual Inaccuracies in the Draft Report

OA requests that the following indirect quotations attributed to SMD Director [name removed]
be removed from the report. The OIG versions of her words do not reflect what she said, create
an unwarranted and unsubstantiated negative personal portrayal and do not qualify as relevant
evidence (emphasis added):
    	 “The SMD Director also said that EPA did not want to make mistakes upgrading its
       headquarters buildings so it has been upgrading other buildings first” (p. 4). The report
       repeats this inaccurate claim in two other places: “Also, EPA indicated it did not want to
       make mistakes upgrading headquarters buildings so it upgraded others first” (At a
       Glance), and “The Director said that they did not want to make mistakes at headquarters
       and were therefore upgrading other buildings first and leaving the upgrades of
       headquarters buildings toward the end of the project” (p. 6).

  OIG Comment: During a June 21, 2011 meeting with the SMD Director, we questioned
  the decision not to upgrade Headquarters’ buildings before other lower level facilities. We
  believe the statements in the report accurately paraphrase those discussions.




13-P-0200                                                                                       40
        “The SMD Director told us she believed it was more efficient and logistically made
        more sense to upgrade facilities based on geographic location. She said that SMD
        preferred to award one contract for each location or region and have all facilities in that
        area upgraded simultaneously. SMD could not provide data or documented justification
        showing that it was more efficient to upgrade based on location; the Director said SMD
        did not have such data because the increased efficiency was obvious” (p. 6).

       OIG Comment: On December 14, 2011, the SMD Director sent the OIG an email
       that stated:
            “Implementing PACS facility-by-facility requires separate and distinct systems
            to be installed in each individual facility. Several criteria were considered when
            comparing a facility-based approach to an enterprise approach. These criteria
            included the cost of hardware and software and the increased technical
            complexity caused by the volume of systems. No quantitative data was produced
            because of the obvious cost advantage. For example, to install independent
            PACS across five facilities would require two servers (primary and backup) per
            location, totaling 10 servers across the five locations, and 5 vendor application
            licenses. In comparison, covering the five locations with a single enterprise
            implementation requires only two servers and one vendor application license.
            The cost differential is obvious without a detailed quantitative analysis.”

   	 “We asked the SMD Director if she had considered other contracting approaches to
      upgrading facilities that emphasized security level first rather than all facilities in a given
      geographic area at the same time. She said that she had not thought of that and would
      have to consult with OAM to determine whether EPA could have used other contracting
      options” (p. 7).

        OIG Comment: We asked the SMD Director on December 21, 2011, whether SMD
        had considered the possibility of awarding a national contract to first upgrade Security
        Level 4 facilities that would contain the option to go back to a particular geographic
        area at a later time to upgrade lower-level facilities in that same location. The SMD
        Director said to us that she had never thought of that option and she would need to
        consult with a contracting expert in OAM to determine whether that was feasible.


We request deletion of unsupported speculation on what might have been effective contracting in
2006 or what might have been done at that time. The OIG presents conjecture on a complex issue
by an individual who likely did not identify herself to the OIG as expert in the identification of
EPA’s “most critical assets” or in what constitutes a proper “prioritized order” for PACS
sequencing. This text does not qualify as relevant evidence and does not contribute to logical
inferences based on findings (emphasis added):
    	 “We discussed this issue with the OAM contracting officer for some PACS contracts and
        she told us that awarding contracts in order of facility security level could have been an
        effective alternative without resulting in greater cost. She said that SMD could have
        awarded national contracts at the beginning of this program to focus first on upgrading all

13-P-0200                                                                                             41
       Level 4s. She said that after SMD upgraded those facilities, additional national contracts
       could have been awarded to upgrade the Level 3s and so on, thereby addressing the most
       critical assets in a prioritized order” (p. 7).

   OIG Comment: We discussed possible contracting options with an EPA contracting
   officer responsible for awarding PACS contracts. The contracting officer provided us with
   her views on additional options mentioned in the report. We believe that this contracting
   officer would have the knowledge and background to provide credible contracting options
   for awarding PACS contracts.


We request deletion or correction of all statements indicating EPA has not achieved intra- and
inter-operability; EPA has achieved full intra- and inter-operability (see discussion of
Recommendation 2, above).

  OIG Comment: EPA has achieved the potential for intra- and inter-operability through the
  EPASS badge. However, the use of the smartcards and the physical access control systems
  is not consistently applied across EPA. We agree with EPA that it needs nationwide
  policies and procedures that foster consistent facility access using the smartcard and we
  encourage the Agency to finalize those policies and procedures as soon as possible.


We request deletion of the following inaccurate statement: “Another reason the PACS upgrade
has been inconsistent is that SMD has not been accountable for how it is carrying out the
program” (p. 11). SMD is accountable to the agency and OMB and provides all reporting that the
agency and OMB require. Our PACS accountability includes:
     A monthly data call to OMB on earned value management, performance and risk
       management, including PACS schedules and costs
     An updated EPASS implementation plan sent to OMB in July 2012
     An annual data call to OMB for EPA’s PortfolioStat in June 2012
     A yearly Capital Planning and Investment Control (CPIC) report to OMB
     An annual report on EPASS, including PACS, as part of the Federal Managers Financial
       Integrity Act assurance process
     A yearly Chief Information Officer CPIC investment review

  OIG Comment: We deleted the statement from our draft report that SMD has not been
  accountable for carrying out the program. We agree that SMD generates a number of
  reports for OMB. Our position is that EPA does not have a clearly identified office in
  charge of its smartcard program. Responsibility for the program is split between OARM
  and OEI.


The OIG makes incorrect connections between accountability, leadership and inconsistency
(emphasis added). “EPA should also increase accountability over its smartcard program by
clearly identifying one senior executive responsible for implementation and oversight. Stronger
leadership over the program should help address the issues related to inconsistency that we have

13-P-0200                                                                                        42
identified” (p. 13). The inconsistency referenced here refers to an earlier OIG statement:
“However, the inconsistency with which EPA has upgraded PACS is impeding EPA’s ability to
have intra-operable systems for EPA employees, much less inter-operability with other agencies”
(p. 13). As explained in our response to Recommendation 2, the PACS program has achieved full
intra- and inter-operability; as explained in the previous paragraph, our PACS program is already
accountable to EPA and OMB. We agree that a single entity to oversee the smartcard program is
needed to make the agency compliant with OMB Memorandum M-11-11 and position the
program to implement EPA’s Identity, Credential, and Access Management initiative.

 OIG Comment: EPA implemented this program from 2008 through 2012 in a manner that
 was not consistent with the plan submitted to OMB. We recognize that SMD responded to this
 issue identified during our audit by submitting a revised plan to OMB in July 2012. This was a
 positive step to increasing accountability. However, EPA’s accountability for implementing
 the PACS program is diminished without identifying a senior executive responsible for the
 PACS program. Regarding the second part of the paragraph above, EPA is not implementing
 the physical access control system in a consistent manner. Different locations use different
 procedures for access and there has been no national standard to guide this process.

The following OIG language is unnecessary and inflammatory (emphasis added): “In addition,
EPA’s Criminal Investigation Division (CID) initially stated that it was not going to upgrade its
facilities because it did not agree with the direction of the smartcard program, and SMD allowed
CID to dictate that decision when it should not have” (p. 9). CID did not interact with SMD in
this manner. The two organizations have been collaborative and collegial. We request that the
underlined text be removed.

 OIG Comment: In discussions with CID and SMD, we found that CID Dallas, Texas, elected
 not to participate in the program. SMD did not take action to ensure CID was included in the
 program until we pointed out to them that the space was accessible to the general public. We
 have adjusted the report language to this effect.


The table on p. 6 of the report, as well as information derived from the table throughout the
report, does not accurately reflect the data provided by SMD to the OIG. To give one example,
the OIG counts only one FSL 4 facility at Research Triangle Park; however, SMD upgraded
PACS at multiple FSL 4 facilities there.

 OIG Comment: During this audit, EPA provided us with multiple lists of EPA facilities that
 were different and some contained discrepancies. Further, in some spreadsheets SMD provided
 us they counted a location as one facility and in others they counted each building at that
 location as a separate facility. Therefore, to obtain a list that incorporated total facilities by
 security level and the date of upgrades, we developed the best supportable list that we could
 from the data SMD provided. We based table 1 on data SMD provided as of April 2012.
 Because EPA’s lists combined facilities into a single entry in some cases, we acknowledge that
 the actual number of EPA facilities could be higher than the total included in our table. Based
CONTACT
 on a report INFORMATION
              we received from SMD that EPA submitted to OMB, as of July 2012 EPA planned
 to upgrade a total of 76 facilities (21 level 4s; 26 level 3s; 26 level 2s; and 3 level 1s).


13-P-0200                                                                                        43
If you have any questions about responses related to the PACS upgrade, please contact Security
Management Division Director Tami Franklin at (202) 564-9218. If you have questions about
responses related to contracting, please contact Special Assistant to the Director of OAM Lisa
Maass at (202) 564-2498.




13-P-0200                                                                                    44
                                                                             Appendix E

                                   Distribution
Office of the Administrator
Deputy Administrator
Assistant Administrator for Administration and Resources Management
Principal Deputy Assistant Administrator for Administration and Resources Management
Chief Financial Officer
Deputy Chief Financial Officer
Director, Office of Budget, Office of the Chief Financial Officer
Director, Office of Human Resources, Office of Administration and Resources Management
Agency Follow-Up Coordinator
General Counsel
Deputy General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-Up Coordinator, Office of the Chief Financial Officer
Audit Follow-Up Coordinator, Office of Administration and Resources Management




13-P-0200                                                                                45
